HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in New Mexico," (A-06-07-00071)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in New Mexico,"
(A-06-07-00071)
May 20, 2008
Complete Text of Report is available in PDF format (397 kb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of New Mexicos Medicaid drug rebate
program, we found that the State had implemented the recommendations from
our prior audit that related to devoting more resources to the drug rebate
program and implementing a sufficiently detailed accounts receivable system.  Manufacturers may make their outpatient drugs eligible for Federal Medicaid
funding by entering into a rebate agreement with the Centers for Medicare &
Medicaid Services (CMS) and paying quarterly rebates to the States.
We also
found that the State had partially implemented the recommendations that related
to interest, dispute resolution,
and Form CMS-64.9R reconciliation; had not implement the recommendation related to
segregation of duties for the receipt of drug rebate funds; and had established controls over collecting rebates for
single-source drugs administered by physicians.
We recommended that the State update accounts
receivable data from January 1991 through February 2007 and attempt to recover
any unpaid rebate balances, including interest, and follow procedures to
reconcile all amounts reported on the Form CMS-64.9R to its accounts receivable
records.  We also reiterated our recommendation that the State implement
policies, procedures, and controls to segregate duties for the receipt of drug
rebate funds.  In comments on the draft report, the State agency
described how it was addressing the recommendations.